            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
        STATE OF WISCONSIN
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2006

    November 2007   A-77-08-00004




  MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                    SOCIAL SECURITY
MEMORANDUM

Date:   November 28, 2007                                                  Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From:   Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Wisconsin for the Fiscal
           Year Ended June 30, 2006 (A-77-08-00004)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Wisconsin for the Fiscal Year (FY) ended June 30, 2006. Our
        objective was to report internal control weaknesses, noncompliance issues, and
        unallowable costs identified in the single audit to SSA for resolution action.

        The Wisconsin Legislative Audit Bureau performed the audit. The Department of
        Health and Human Services’ (HHS) desk review concluded that the audit met Federal
        requirements. In reporting the results of the single audit, we relied entirely on the
        internal control and compliance work performed by the Wisconsin Legislative Audit
        Bureau and the reviews performed by HHS. We conducted our review in accordance
        with the Quality Standards for Inspections issued by the President’s Council on Integrity
        and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Wisconsin Division of Vocational Rehabilitation (DVR) within the Department of
        Workforce Development (DWD) provides vocational rehabilitation services to individuals
        receiving DI and SSI. SSA reimburses DVR for the direct costs of certain vocational
        rehabilitation services, provided that all eligible cases are submitted within 12 months
        after the clients fulfill their gainful activity requirements.
Page 2 – Candace Skurnik

The single audit reported DWD did not have sufficient internal controls over its
vocational rehabilitation reimbursement program. Specifically, DWD did not claim SSA
reimbursement for all eligible claims timely. The corrective action plan indicated that
DWD staff will use an electronic calendar as a tickler system to set up reminder dates to
review cases so that SSA reimbursements are claimed timely (Attachment,
pages 2 and 3). Since DWD is responsible for establishing a system to submit claims to
SSA for timely reimbursement, we are not making a formal recommendation.

If you have questions contact Ken Bennett at (816) 936-5593.




                                         Patrick P. O’Carroll, Jr.

Attachment
Attachment
Page 1 of 3
Attachment
Page 2 of 3
Attachment
Page 3 of 3
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
